SEC’s Oversight of Bear Stearns
and Related Entities:

Broker-Dealer Risk Assessment
Program




 Sections of this report have been redacted to   September 25, 2008
 delete information that SEC believes is non-      Report No. 446-B
 public and confidential.
                                            U N I T E D STATES
                          S E C U R l T l E S A N D EXCHANGE COMMISSION
                                      WASHINGTON, D . C .    20549

     OFFICE OF
INSPECTOR GENERAL
                                    MEMORANDUM


          To:           Christopher Cox, Chairman
                        Erik R. Sirri, Director, Division of Trading and ~ a r k e t s
                        Lewis W. Walker, Office of InformationTechnology, Acting Director
                        and Chief lnforrnation Officer

          From:         H. bavid Kotz, Inspector ~ene*

          Subject:      SEC's Oversight of Bear Stearns and Related Entities: Broker-
                        Dealer Risk Assessment Program, Report No. 446-B

          This memorandum transmits the Securities and Exchange Cpmmission, Office of
          lnspector General's final report, detailing the results of our audit on the Division
          of Trading and Market's (TM) Broker-Dealer Risk Assessment program. This
          audit was conducted pursuant to a Congressional request from Ranking Member'
          Charles E. Grassley of the United States Senate Committee on Finance.

          The final report contains 10 recommendations, which if implemented, should
          improve the Broker-Dealer Risk Assessment program. TM and the Office of
          Information Technology's (OIT) written responses to the draft report are included
          in their entirety in Appendix Vl in the audit report. TM concurred with 9 of the
          report's 10 recommendations and OIT concurred with the two recommendations
          that pertained to OIT.

          Should you have any questions regarding this report, please do not hesitate to
          contact me. We appreciate the courtesy and cooperation that you and your staff
          extended to our auditors during this audit.

          Attachment
cc:   Peter Uhlmann, Chief of Staff, Chairman’s Office
      Diego T. Ruiz, Executive Director, OED
      Bob Colby, Deputy Director, TM
      Daniel M. Gallagher, Jr., Deputy Director, TM
      Michael A. Macchiaroli, Associate Director, TM
      Matthew J. Eichner, Assistant Director, TM
      Thomas K. McGowan, Assistant Director, TM
      Herb Brooks, Assistant Director, TM
      Kimberly L. Earle, Accountant, TM
      Patrice D. Pegram, Regulatory Specialist, TM
      Denise Landers, Senior Special Counsel, TM
      George R. Eckard, Assistant Director, OIT
      Srinivas Bangarbale, Assistant Director, OIT
      Daniel F. Lisewski, Branch Chief, OIT
      Juli Johnson, Configuration Management Specialist, OIT
      Joyce C. Hankins, Team Leader, OIT
      Remi Pavlik-Simon, Program Analyst, OIT
      Ann K. Lin, Systems Analyst, OIT
      Darlene L. Pryor, Business Analyst, OED

      Rick Hillman, Managing Director of Financial Markets and Community
            Investment, GAO




                                     ii
SEC Risk Assessment Program

                                Executive Summary
Background. Section 17(h) of the Securities and Exchange Act of 1934 was
amended in 1990, and temporary rules 17h-1T and 17h-2T became effective in
September 1992. These rules require broker-dealers that are part of a holding
company structure with at least $20 million in capital to file with the Commission
disaggregated, non-public information on the broker-dealer, the holding
company, and other entities within the holding company, and to maintain and
preserve records and other information concerning entities related to the broker-
dealer. Currently, there are 146 broker-dealers that file the Risk Assessment
Report for Brokers and Dealers (Form 17-H or 17(h) documents) with the
Commission under the Broker-Dealer Risk Assessment program.
The purpose of the Broker-Dealer Risk Assessment program is for staff in the
Division of Trading and Markets (TM) to assess the risks to registered broker-
dealers that may stem from affiliated entities, including holding companies and
keep apprised of significant events that could adversely affect broker-dealers,
customers and the financial markets. TM tracks the filing status of the 146
broker-dealers that file 17(h) documents with the Commission, but only reviews
in detail the filings from six prominent firms, because they have a significant
number of customer accounts and TM has, therefore deemed them to be
material firms.

Congressional Request. On April 2, 2008, the Office of Inspector General
(OIG) received a letter from Ranking Member Charles E. Grassley of the United
States Senate Committee on Finance, requesting that the OIG analyze the
Commission’s oversight of Consolidated Supervised Entities (CSE) firms and
broker-dealers subject to the Commission’s Risk Assessment program.1 This
letter noted that TM was responsible for regulating the largest broker-dealers,
and their associated holding companies. The letter requested that the OIG
provide an update of findings made in its previous audit report on the
Commission’s Broker-Dealer Risk Assessment program (Broker-Dealer Risk
Assessment Program, Report no. 354, issued on August 13, 2002).

The United States Senate Committee on Finance letter also requested a review
of TM’s oversight of the CSE it directly oversees, with a special emphasis on The
Bear Stearns Companies, Inc (Bear Stearns). The letter requested that the OIG
analyze how the CSE program is run, the adequacy of the Commission’s
monitoring of Bear Stearns, and to make recommendations to improve the
Commission’s CSE program.2

1
  A copy of this request letter is attached to this report in full in Appendix II.
2
  The United States Senate Committee on Finance letter also requested that the Office of Inspector General
(OIG) conduct an investigation into the facts and circumstances surrounding the Commission’s decision to
Broker-Dealer Risk Assessment Program                                                 September 25, 2008
Report No. 446-B
                                                    iii
Objectives. In response to the April 2, 2008 Congressional Request, the OIG
conducted two separate audits with regard to the Commission’s oversight of Bear
Stearns and related entities. This audit’s objectives were to follow up on the
current status of recommendations made in the OIG’s prior audit report of the
Risk Assessment program (Broker-Dealer Risk Assessment Program, Report no.
354, issued on August 13, 2002); and to examine the Broker-Dealer Risk
Assessment Process to determine whether improvements are needed.

The OIG performed a second audit of the Commission’s CSE program. This
audit’s objectives were to evaluate the Commission’s CSE program, emphasizing
the Commission’s oversight of Bear Stearns and to determine whether
improvements are needed in the Commission’s monitoring of CSE firms and its
administration of the CSE program. The CSE program is a voluntary program
that was created by the Commission in 2004, which allows the Commission to
supervise certain broker-dealer holding companies on a consolidated basis. The
report found that the Commission’s oversight of Bear Stearns and the other CSE
firms should be improved, the guidelines regarding the CSE firms’ capital and
liquidity requirements should be reassessed and the Commission, in consultation
with the Board of Governors of the Federal Reserve, should determine whether
leverage ratio limits should be imposed. The report also found that the
Commission should adequately incorporate the CSE firms’ concentration of
securities into the CSE program’s assessment of the firms’ risk management
systems, more aggressively prompt CSE firms to take action to mitigate such
risks, and be more skeptical of the firms’ risk models. The report contained 26
recommendations to improve the CSE program. Audit report number 446-A,
examining the Commission’s CSE program was issued simultaneously with this
report on September 25, 2008.

Prior OIG Audit Report. The prior OIG report on the Broker-Dealer Risk
Assessment program contained 14 recommendations to improve the program.
TM addressed several of the prior OIG report’s recommendations. However, one
of the very significant recommendations in the prior OIG report stated that the
Commission should update and finalize temporary rules 17h-1T and 17h-2T. As
of this date, six years later, these temporary rules still have not been updated.
The result is that several aspects of these rules are not effective mainly because
they do not require firms to file certain pertinent information with the Commission
and many filings are not reviewed by TM staff. Additionally, while TM has
claimed that the rules currently require too many firms to file 17(h) documents
with the Commission, TM has not taken any steps to update these rules.

The prior OIG report also recommended that TM explore the feasibility of having
firms electronically file 17(h) documents. In 2005, TM in consultation with the
Office of Information Technology launched the Broker-Dealer Risk Assessment
(BDRA) system, which enables firms to file Form 17-H electronically. As of

not pursue an Enforcement Action against Bear Stearns. This issue was addressed in an OIG investigative
report dated September 25, 2008.
Broker-Dealer Risk Assessment Program                                               September 25, 2008
Report No. 446-B
                                                   iv
September 2008, however, three years later, only 20 of the 146 firms filing 17(h)
documents were filing electronically and the remaining firms still file paper
documents.

Results. TM is not fulfilling its obligations in accordance with the underlying
purpose of the Broker-Dealer Risk Assessment program in several respects.
First, TM has failed to update and finalize the rules governing the program, which
would ensure that broker-dealers file pertinent information with the Commission
in a timely manner. Second, TM has failed to enforce the temporary rules’
document retention and filing requirements that are incumbent upon broker-
dealers. As a result, nearly one-third of the firms failed to file 17(h) documents
as required by the rules. Third, even after the collapse of Bear Stearns, in March
2008, two related broker-dealers still exist, one of which carries a significant
number of customer accounts. However, TM has not yet determined whether
these broker-dealers are obligated to file Form 17-H. Fourth, although TM tracks
the filing status of 146 broker-dealers that file quarterly and annual reports with
the Commission, TM only conducts an in-depth review of the filings for six of the
146 firms that TM determined are most significant. TM generally does not review
the filings for the remaining 140 firms, yet they are required to file under the
Broker-Dealer Risk Assessment program. Fifth, TM does not timely process and
review the filings from the six firms upon which its staff focus their review. Sixth
and finally, TM does not maintain documentation to identify all of the broker-
dealers that are exempt from the filing process.

TM’s failure to carry out the purpose and goals of the Broker-Dealer Risk
Assessment program hinders the Commission’s ability to foresee or respond to
weaknesses in the financial markets. This may impact TM’s ability to protect
customers from financial or other problems experienced by broker-dealers.

Summary of Recommendations. This report reasserts an OIG
recommendation made in 2002, that TM should update and finalize temporary
rules 17h-1T and 17h-2T, which govern the Broker-Dealer Risk Assessment
program and enforce broker-dealer compliance with these rules. It is also critical
for TM to determine whether the broker-dealers associated with Bear Stearns are
required to file Form 17-H with the Commission in light of the significant amount
of customer accounts carried by these broker-dealers. We also recommend that
TM process all 17(h) filings in a timely manner, ensure that firms required to file
Form 17-H actually file, and maintain documentation to identify all of the broker-
dealers that are exempt from filing Form 17-H. We further recommend that TM
aggressively encourage firms to file electronically with the Commission, and
resolve the technical problems that have been identified with the BDRA filing
system. A detailed list of our recommendations can be found in Appendix V.

TM concurred with 9 of the report’s 10 recommendations and the Office of
Information Technology (OIT) concurred with the two recommendations that
pertained to OIT. Management’s responses to the report are included in its

Broker-Dealer Risk Assessment Program                               September 25, 2008
Report No. 446-B
                                         v
entirety in Appendix VI. OIG’s response to Management’s comments is included
in Appendix VII.




Broker-Dealer Risk Assessment Program                         September 25, 2008
Report No. 446-B
                                        vi
TABLE OF CONTENTS
Executive Summary ......................................................................................................iii

Table of Contents ........................................................................................................vii

Background and Objectives .......................................................................................... 1

Findings and Recommendations................................................................................... 6

         Finding 1: TM Has Not Finalized Temporary Rules 17h-1T and 17h-2T
         Balances Are Not Fully Compliant...................................................................... 6
                      Recommendation 1....................................................................... 9

         Finding 2: TM Has Not Determined Whether Bear Stearns’ Broker-Dealers
         are Subject to the Broker-Dealer Risk Assessment Program........................... 10
                       Recommendation 2..................................................................... 11

         Finding 3: TM Does Not Enforce Compliance with Rules 17h-1T and 17h-
         2T and Its Own Policies ................................................................................... 12
                      Recommendation 3..................................................................... 12
                      Recommendation 4..................................................................... 13
                      Recommendation 5..................................................................... 13

         Finding 4: TM Does Not Process 17(h) Filings in a Timely Manner ................. 14
                      Recommendation 6..................................................................... 14

         Finding 5: TM’s List of Exempt Firms is Incomplete and Erroneous................. 14
                      Recommendation 7..................................................................... 15

         Finding 6: TM Has Not Effectively Encouraged Firms to Electronically File
         17(h) Documents.............................................................................................. 16
                      Recommendation 8..................................................................... 16

         Finding 7: TM Should More Effectively Utilize the BDRA System .................... 17
                      Recommendation 9..................................................................... 17

         Finding 8: Several Technical Problems Exist with the BDRA System that
         Need to be Addressed ..................................................................................... 17
                      Recommendation 10................................................................... 18




Broker-Dealer Risk Assessment Program                                                          September 25, 2008
Report No. 446-B
                                                         vii
Appendices
     Appendix I: Acronyms. .................................................................................... 19
     Appendix II: Congressional Request for Audit................................................. 20
     Appendix III: Scope and Methodology............................................................. 22
     Appendix IV: Criteria ....................................................................................... 24
     Appendix V: List of Recommendations ........................................................... 25
     Appendix VI: Management Comments............................................................ 28
     Appendix VII: OIG Response to Management’s Comments ........................... 36




Broker-Dealer Risk Assessment Program                                                    September 25, 2008
Report No. 446-B
                                                     viii
                   Background and Objectives

Background
In 1990, Drexel Burnham Lambert Group, Inc. (Drexel), the holding company of a
formerly prominent broker-dealer, experienced financial difficulties. In a period of
about three weeks and without the knowledge of the Commission or the New
York Stock Exchange, approximately $220 million of capital was transferred from
the broker-dealer to its holding company, in the form of short-term loans. By the
time the Commission learned about the transaction, Drexel or its associated
entities had amassed a significant amount of short-term liabilities that were due
to mature within a month and they could not meet these obligations. As a result,
Drexel’s broker-dealer filed for bankruptcy and was subsequently liquidated.
This case illustrates that the financial difficulties of associated entities may lead
to the demise of the broker-dealer itself.

Section 17(h) of the Securities and Exchange Act of 1934 (Exchange Act)3 was
added in 1990 by the Market Reform Act of 1990, and temporary rules 17h-1T
and 17h-2T4 became effective in 1992, following Drexel’s collapse. These rules
require broker-dealers with at least $20 million in capital that are part of a holding
company structure to file Form 17-H, Risk Assessment Report for Brokers and
Dealers (Form 17-H or 17(h) documents) with the Commission and to maintain
and preserve records and other information concerning the broker-dealer’s
Material Associated Persons (MAP). 5

Form 17-H filings consist of disaggregated, non-public information on the broker-
dealer, the holding company, and other entities within the holding company.
Form 17-H consists of two parts and broker-dealers are required to file the form
quarterly and also file an annual report with the Commission. Part I of Form 17-H
requires reporting in four areas: (1) Organizational Structure; (2) Financing,
Capital Adequacy and Risk-Management Policies and Procedures; (3) Pending
Legal Matters and Contingencies; and (4) Consolidated and Consolidating
Financial Data. Part II of the form requires reporting financial information about
the broker-dealer’s MAPs.

TM’s Program Oversight and Responsibilities. The Division of Trading and
Markets (TM) oversees the Broker-Dealer Risk Assessment program and is

3
  15 U.S.C. §78q(h).
4
  17 C.F.R. §§ 240.17h-1T & 240.17h-2T.
5
  MAPs are defined as affiliates of broker-dealers that are subject to the 17(h) filing requirement.
The determination of whether an entity is a MAP is made by the reporting broker-dealer, subject
to Commission oversight and involves consideration of all aspects of the activities of, and the
relationship between both entities as described in Rule 17h-1T.

Broker-Dealer Risk Assessment Program                                             September 25, 2008
Report No. 446-B
                                              Page 1
responsible for receiving and reviewing 17(h) filings. The Broker-Dealer Risk
Assessment program is staffed with a full-time regulatory specialist and a part-
time Certified Public Accountant, who manage the program. The purpose of this
program is for TM staff to assess the risks to registered broker-dealers that may
stem from affiliated entities, including holding companies and to keep TM’s staff
apprised of significant events that could adversely affect broker-dealers,
customers and the financial markets.

Six Broker-Dealers Receive Comprehensive Reviews. There are 146 broker-
dealers that currently file 17(h) documents with the Commission.6 However, TM
only conducts a detailed review of six of the 146 broker-dealers’ filings because
TM designated these six firms as material broker-dealers based on their size and
the significant amount of customer accounts that they carry. According to first
quarter 2008 data provided by the Financial Industry Regulatory Authority
(FINRA) ,7 these six broker-dealers carry approximately 43 percent of the
customer accounts and 11 percent of the free credit balances of all United States
broker-dealers that are regulated by FINRA. Free credit balances represent the
cash held by a broker in a customer’s margin account that the customer can
withdraw at any time, without restriction.

Increased Monitoring of Select Broker-Dealers. Of the 146 broker-dealers,
10 additional firms carry approximately 11 percent of the customer accounts and
3 percent of the free credit balances of all United States broker-dealers that are
regulated by FINRA.8 However, TM does not currently monitor these 10 firms on
a regular basis, because TM does not believe they are as material as the 6
broker-dealers that it regularly monitors. TM may review information from these
10 filers if an issue arises. For example, if one of these firms experiences
financial difficulties or undergoes a major change, TM may review the firm’s 17(h)
filings. TM has stated that it plans to monitor these firms on a regular basis in
fiscal year 2008. As of August 2008, however, TM had not reviewed in detail any
of these firms.

Regulation of Firms Through the CSE and SIBHC Programs. In addition to
the 146 firms filing 17(h) documents, TM regulates six additional firms through
the Commission’s Consolidated Supervised Entity (CSE) program and one firm
through the Commission’s Supervised Investment Bank Holding Company
(SIBHC) program. Thus, there are seven firms that are regulated under the CSE

6
  It is possible that additional firms are required to file Form 17-H that are not filing either because
the Commission is not aware of these firms or the Commission has not required these firms to file
Form 17-H. This issue is discussed later in the report.
7
  FINRA is the largest non-governmental regulator for all securities firms doing business in the
United States. FINRA oversees more than 5,000 brokerage firms. FINRA was created in July
2007 through the consolidation of the National Association of Securities Dealers and the
regulation committee of the New York Stock Exchange.
8
  Source: FINRA Data as of March 31, 2008.

Broker-Dealer Risk Assessment Program                                               September 25, 2008
Report No. 446-B
                                               Page 2
and SIBHC programs. The intent of the CSE and SIBHC programs is for the
Commission to provide consolidated supervision at the holding company level.
The CSE and SIBHC firms are required to file more comprehensive information
with the Commission than is required under the Broker-Dealer Risk Assessment
program and TM reviews these firms in greater depth than the 17(h) filers.

These seven firms carry approximately 21 percent of all customer accounts and
70 percent of all the free credit balances of all the broker-dealers that are
regulated by FINRA.9 Approximately 15 full-time TM personnel with backgrounds
in finance and economics manage these programs.

Overall Monitoring of Firms by the Commission and the Federal Reserve.
According to FINRA data as of March 31, 2008, the firms monitored by the
Commission through the Broker-Dealer Risk Assessment, CSE and SIBHC
programs carry approximately 64 percent of the customer accounts and 80
percent of the free credit balances of all United States broker-dealers that are
regulated by FINRA.

Additional firms regulated by the Board of Governors of the Federal Reserve
System (Federal Reserve) constitute up to 24 percent of the customer accounts
and up to 17 percent of the free credit balances of all United States broker-
dealers that are regulated by FINRA.

Thus, total monitoring by either the Commission or the Federal Reserve
constitutes as much as 88 percent of customer accounts and 97 percent of the
free credit balances of all United States broker-dealers that are regulated by
FINRA.

Authority to Exempt Broker-Dealers from Filing Form 17-H. Temporary Rule
17h-2T gives the Commission the authority to exempt broker-dealers from filing
Form 17-H. Using its authority, TM may permit broker-dealers that it does not
monitor in-depth, to only file Form 17-H on an annual basis (instead of quarterly)
and only submit information as warranted by media sources and business
developments.

Staff Review of Filings. TM staff has described its review of filings as follows.
The organization chart is the starting point for its review. The organization chart
sets forth the entities which are MAPs, associated broker-dealers and all other
entities within the holding company.

TM staff focus on the consolidating financial statements, which identify each
MAP, broker-dealer and significant unregulated entity in a separate column. TM
staff review the consolidated financial statements for trends in financial condition

9
    Source: FINRA Data as of March 31, 2008.

Broker-Dealer Risk Assessment Program                                September 25, 2008
Report No. 446-B
                                               Page 3
and operating results. The staff look at the parent company and unregulated
entities’ data for evidence of significant business, measured by revenues or
balance sheet activity. If there is significant unregulated business within the
holding company, staff analyze the nature, risk and profitability of the business to
determine if it is supported by capital and the ability of the group to maintain
liquidity during a downward trend in business or other event. TM staff look at
inter-company money flows, liquidity, the types of assets held in each entity and
the types of maturities of funding for the assets.

As warranted, TM staff may supplement filing reviews with on-site visits. TM staff
have documented their review of broker-dealers’ filings in written memoranda,
which were provided to the program’s Assistant Director. TM stated that the
memoranda are still produced, however, the most recent written memorandum
was dated August 2007. TM currently tracks quarterly financial data of the six
firms it reviews in a spreadsheet.

The BDRA Electronic Filing System. The Broker-Dealer Risk Assessment
(BDRA) system is an electronic filing system, created by the Office of Information
Technology (OIT), in consultation with TM. The Commission started using the
BDRA system in 2005. This system allows firms monitored under the Broker-
Dealer Risk Assessment, CSE and SIBHC programs to submit required filings
electronically. However, as of September 2008, only 20 of the 146 broker-
dealers that are required to file 17(h) documents with the Commission have
opted to use BDRA. In contrast, all seven of the firms monitored under the CSE
and SIBHC programs use BDRA to file required documents.

Objectives
As a result of the collapse of Bear Stearns in March 2008, we received a
Congressional request to perform this audit of the Commission’s Risk
Assessment program, in addition to an audit of the Commission’s CSE program
(see Appendix II).

The objectives of this audit were to follow up on recommendations made in the
OIG’s prior audit report of the Risk Assessment program (Broker-Dealer Risk
Assessment Program, Report no. 354, issued on August 13, 2002); and to
examine the Commission’s broker-dealer review process to determine whether
improvements are needed.

The objectives of the audit on the Commission’s CSE program were to evaluate
the Commission’s CSE program, emphasizing the Commission’s oversight of
Bear Stearns and to determine whether improvements are needed in the
Commission’s monitoring of CSE firms and its administration of the CSE
program. The CSE program is a voluntary program that was created by the

Broker-Dealer Risk Assessment Program                               September 25, 2008
Report No. 446-B
                                        Page 4
Commission in 2004, which allows the Commission to supervise certain broker-
dealer holding companies on a consolidated basis. The report found that the
Commission’s oversight of Bear Stearns and the other CSE firms should be
improved, the guidelines regarding the CSE firms’ capital and liquidity
requirements should be reassessed and the Commission, in consultation with the
Board of Governors of the Federal Reserve, should determine whether leverage
ratio limits should be imposed. The report also found that the Commission
should adequately incorporate the CSE firms’ concentration of securities into the
CSE program’s assessment of the firms’ risk management systems, more
aggressively prompt CSE firms to take action to mitigate such risks, and be more
skeptical of the firms’ risk models. The report contained 26 recommendations to
improve the CSE program. Audit report number 446-A, examining the
Commission’s CSE program was issued simultaneously with this report on
September 25, 2008.




Broker-Dealer Risk Assessment Program                            September 25, 2008
Report No. 446-B
                                        Page 5
Findings and Recommendations

Finding 1: TM Has Not Finalized Temporary Rules
17h-1T and 17h-2T
           Temporary rules 17h-1T and 17h-2T were adopted in 1992,
           and TM has neither updated nor made the rules permanent,
           despite significant changes in broker-dealer operations and
           risks that have occurred since the temporary rules were
           implemented.

In August 2002, the OIG issued an audit report on the Broker-Dealers Risk
Assessment program that contained 14 recommendations to improve the
program. One of the most significant recommendations in the report was that the
Commission needed to update and finalize temporary rules 17h-1T and 17h-2T.
As of this date, six years later, these temporary rules have still not been updated
or finalized.

TM’s failure to update these rules has resulted in inefficiencies that include the
Commission’s receipt of numerous filings that TM does not review, while it does
not receive all pertinent information from the firms that do file with the
Commission. Instead of updating and finalizing the rules, TM has made informal
policy decisions to compensate for the rules’ shortcomings.

TM Focuses Its Efforts on Only Six Broker-Dealers. Currently, there are 146
broker-dealers that file 17(h) documents with the Commission. Rather than
updating temporary rules 17h-1T and 17h-2T, TM’s policy has been to focus its
efforts on reviewing only six of the 146 broker-dealers that carry the largest
number of customer accounts (43.18 percent) and comprise the most significant
free credit balances (10.64 percent) of the more than 5,000 broker-dealers that
are regulated by FINRA.10

TM reviews information from the remaining 140 filing firms only if a pertinent
issue arises. For example, TM recently reviewed a 17(h) filing of a broker-dealer
in order to provide information about the firm to another regulator. However,
TM’s review of these other 140 firms is sporadic and random and cannot be
considered effective monitoring.




10
     Source: FINRA Data as of March 31, 2008.

Broker-Dealer Risk Assessment Program                               September 25, 2008
Report No. 446-B
                                                Page 6
TM informed OIG that it plans to expand its review of 17(h) filings in 2008 to
include an additional 10 of the 146 firms that file 17(h) documents. These firms
carry approximately 11 percent of all customer accounts and 3 percent of all the
free credit balances for all of the broker-dealers that are regulated by FINRA. As
of August 2008, however, TM had not reviewed in detail any of these firms.

Impact of the Gramm-Leach-Bliley Act on the Broker-Dealer Review
Process. The Gramm-Leach-Bliley Act (GLBA),11 became effective on March
13, 2000, and significantly impacted temporary rule 17h-2(T). The Act permitted
banks, securities firms and holding companies to affiliate with each other, and
resulted in banks engaging in the securities business. As a result, the Federal
Reserve became a principal regulator for certain securities firms subject to the
Broker-Dealer Risk Assessment program’s reporting requirements, which was
not the case prior to the GLBA. Some of these securities firms are subject to
filing Form 17-H.

TM made an internal and undocumented policy decision12 to forgo the review of
numerous 17(h) filings from broker-dealers that already had a principal regulator,
such as the Federal Reserve or a foreign regulator. All reporting broker-dealers
in the United States are regulated by FINRA and firms with a principal regulator
have dual regulation. Therefore, TM has stated that it believes it is not
necessary to review 17(h) filings from firms with principal regulators. However,
temporary rule 17h-2(T) still requires these firms to file Form 17-H.

Broker-Dealer Capital Threshold Should Be Increased. Temporary rule 17h-
2T requires all broker-dealers with at least $20 million in capital that are part of a
holding company structure to file 17(h) documents with the Commission. TM
believes that the capital threshold that triggers the filing requirement should be
raised so that fewer broker-dealers file Form 17-H. TM believes that the $20
million capital threshold was appropriate in 1992, but that it is now too low,
resulting in firms unnecessarily filing Form 17-H. Because of the threshold
requirement, TM is receiving filings from 140 of 146 broker-dealers that it
generally does not review. This has created an unnecessary filing burden for the
firms and gives the impression that the Commission is monitoring and overseeing
all 146 firms that are filing 17(h) documents and not just the six firms that TM
reviews in detail. To the contrary, TM rarely, if ever reviews the filings from 140
firms.

While TM believes that temporary rule 17h-2T should be revised to increase the
capital threshold, TM has not taken any measures to revise this rule or temporary
rule 17h-1T. As such, 146 broker-dealers are required to file 17(h) documents
with the Commission but TM does not review most of these filings. TM stated

11
     Public Law 106-102 (Nov. 12, 1999).
12
     TM verbally informed OIG of this decision, which is not memorialized in writing.

Broker-Dealer Risk Assessment Program                                              September 25, 2008
Report No. 446-B
                                                Page 7
that limited staff resources and a lack of prioritization have prevented its staff
from revising and finalizing these rules.

In order to revise the temporary rules, TM must engage in a formal rulemaking
process. The rulemaking process involves issuing a rule proposal for public
review and comment and considering the public’s views. The Commission then
considers and incorporates the public’s comments into the final rule, which is
adopted by vote of the full Commission. Once adopted, the rule becomes a part
of the official rules that govern the securities industry.

TM has avoided this formal rulemaking process in favor of making an internal
and unwritten policy decision to not review many of the firms’ 17(h) filings. This
decision has ramifications for the 17(h) filers, the securities industry and the
investing public.

Temporary Rules Need to Be Updated. In addition to any modification of the
threshold requirements that TM believes should be made, the rules have
additional shortcomings which require immediate revision as follows:

     •   The time allotted for broker-dealers to send quarterly and annual filings
         should be shortened to accommodate more timely receipt of information.
         Currently, broker-dealers have 60 and 105 days to send quarterly and
         annual filings, respectively. Firms are able to send this information in a
         much shorter time period. Receiving information 60 to105 days after the
         quarter-end or year-end hinders TM’s ability to timely review a firm’s
         filings, because the data may no longer be relevant.

     •   The year-end financial statements that broker-dealers submit to the
         Commission should be audited. Currently, the financial statements are
         not required to be audited and as a result, may not comply with Generally
         Accepted Accounting Principles (GAAP).13 Compliance with GAAP is
         important because it proscribes the standard guidelines to follow in
         preparing financial statements for private companies and companies
         trading publicly in the United States.

     •   The rules should be updated to allow TM to collect relevant information
         about risks posed by derivative products and transactions. The current
         rules only request peripheral information about a broker-dealer’s derivative
         activities, such as the notional amounts. This information is currently
         provided in Part II of Form 17-H. This information does not provide TM
         with an overview of a firm’s risks related to derivative activities; nor does it

13
   Broker-dealers are generally required to file financial statements in accordance with GAAP. If the
financial statements are not prepared in accordance with GAAP, the broker-dealers are required to disclose
the accounting principles upon which the financial statements are based.

Broker-Dealer Risk Assessment Program                                                 September 25, 2008
Report No. 446-B
                                                 Page 8
        allow for TM to make an adequate assessment of a firm’s current risk
        management activities and measurement criteria.

    •   All broker-dealers subject to filing Form 17-H should be required to file
        consolidating financial statements with the Commission. Broker-dealers
        that already have a principal regulator at the holding company level, such
        as the Federal Reserve or a foreign regulator are not required to file
        consolidating financial statements. The consolidating financial statements
        are one of the most useful parts of the filing because they provide
        information broken out by each affiliated entity of the broker-dealer.
        Information provided in this manner would provide TM with a greater
        understanding of a broker-dealer’s business and each of its counterparts,
        and would enable TM to evaluate the potential impact of each entity on the
        broker-dealer.

    •   Broker-dealers should be required to file footnote disclosures that
        accompany the financial statements and the statement of cashflows.
        Broker-dealers are permitted to omit these items from the consolidating
        financial statements. The footnote disclosures are important because they
        disclose the accounting methodologies firms use to record and report
        transactions and details additional information that is omitted from the
        financial statements, such as the balance sheet and income statement.
        The statement of cash flows is important because it provides information
        regarding a company's cash receipts, cash payments and its ability to
        meet its short-term obligations.

    •   The organizational charts that broker-dealers file should be supplemented
        with a narrative description of each entity associated with the broker-
        dealer and its ultimate holding company. TM staff stated that the
        organization chart is the starting point for its review. If the organizational
        chart contained this additional information, it would further assist TM to
        understand a broker-dealer’s operations and risks. Therefore, TM would
        be in a better position to respond to problems experienced by a broker-
        dealer.

    •   Rule 17h-1T should be revised to ensure that firms preserve all pertinent
        documents. Rule 17h-1T does not require broker-dealers to preserve all
        pertinent documents, such as information pertaining to derivative contracts
        and laws, which impacted broker-dealers after 1992, when temporary rule
        17h-1T was implemented.

Recommendation 1
Within six months from the issuance of this report, the Division of Trading and
Markets (TM) should establish a timeframe to update and finalize temporary rules


Broker-Dealer Risk Assessment Program                                 September 25, 2008
Report No. 446-B
                                        Page 9
17h-1T and 17h-2T. The new rules should reflect TM’s Broker-Dealer Risk
Assessment program’s review process and program priorities. The rules should
be revised to:

    •   Raise the capital threshold that triggers the 17(h) filing requirement (if TM
        believes the threshold is too high);
    •   Shorten the time allotted firms to send quarterly and annual 17(h) filings to
        the Commission;
    •   Require broker-dealers to file audited year-end financial statements;
    •   Allow for the collection of relevant information about risks posed by
        derivative products and transactions;
    •   Require all broker-dealers subject to filing Form 17-H to file consolidating
        financial statements with the Commission;
    •   Require broker-dealers to file the footnote disclosures that accompany the
        financial statements and the statement of cash flows;
    •   Require broker-dealers to supplement the organizational charts they file
        with a narrative description of each entity associated with the broker-
        dealer and its ultimate holding company;
    •   Require broker-dealers to preserve all pertinent documents; and
    •   Incorporate any additional changes that reflect TM’s policy decisions on
        how to administer the Broker-Dealer Risk Assessment program.


Finding 2: TM Has Not Determined Whether Bear
Stearns’ Broker-Dealers are Subject to the Broker-
Dealer Risk Assessment Program.
        Since the purchase of Bear Stearns in May 2008 by JP
        Morgan Chase & Co. (JP Morgan), TM has not determined
        whether Bear Stearns’ broker-dealers are subject to filing
        Form 17-H with the Commission.

In mid-March 2008, Bear Stearns suffered a liquidity crisis at the holding
company level and determined that unless it received outside funding (from the
Federal Reserve or another lender) or the company was sold, it would be forced
to file for bankruptcy protection. In May 2008, JPMorgan purchased Bear
Stearns. This purchase resulted in JPMorgan becoming the parent company of
two broker-dealers, that were formerly associated with Bear Stearns. These
broker-dealers still exist, despite the collapse of the Bear Stearns holding
company.



Broker-Dealer Risk Assessment Program                                September 25, 2008
Report No. 446-B
                                        Page 10
Prior to its collapse, TM regulated Bear Stearns as part of the CSE program and
therefore, its broker-dealers were exempt from filing Form 17-H. Subsequent to
its collapse, Bear Stearns’ broker-dealers may now be required to file Form 17-H
with the Commission. It is especially important for TM to determine whether
these broker-dealers need to file Form 17-H because one of Bear Stearns’
broker-dealers holds a significant percentage of customer accounts and free
credit balances. Additionally, given the catastrophic collapse of Bear Stearns and
serious questions that have been raised regarding the Commission’s and the
CSE program’s monitoring of Bear Stearns, we believe that TM should have
immediately contacted Bear Stearns to discuss its potential 17(h) filing
requirements.14

In September 2008, the other four firms that are or were regulated in the
Commission’s CSE program had undergone significant changes.15 These firms
were in the process of being purchased or merged into other firms, or filed to be
bank holding companies. It is possible that these other firms have broker-dealers
as well and therefore, TM would also need to determine if these firms’ broker-
dealers would be subject to the 17(h) filing requirement.

TM informed OIG that it had not yet determined whether the Bear Stearns’
broker-dealers are required to file Form 17-H, or if they are exempt from doing so
because their new holding company, JP Morgan, is subject to filing
documentation under the Commission’s CSE program. TM further stated that if it
is determined that the broker-dealers are required to file Form 17-H, to avoid
receiving duplicate information, they will likely require only one broker-dealer to
file Form 17-H with the Commission.

Recommendation 2
The Division of Trading and Markets (TM) should determine whether Bear
Stearns and the broker-dealers of the other CSE firms are required to file Form
17-H. If TM determines that these broker-dealers are required to file Form 17-H,
the Division of Trading and Markets should enforce their compliance with this
filing requirement and timely process and review these filings.




14
   For a detailed discussion of the CSE program, see OIG report, SEC’s Oversight of Bear
Stearns and Related Entities: The Consolidated Supervised Entity Program, Report No. 446-A,
September, 25, 2008, which was issued simultaneously with this report.
15
   These other four firms are Lehman Brothers Holdings, Inc., Merrill Lynch & Co., JP Morgan,
and Goldman Sachs Group, Inc.

Broker-Dealer Risk Assessment Program                                        September 25, 2008
Report No. 446-B
                                           Page 11
Finding 3: TM Does Not Enforce Compliance with
Rules 17h-1T and 17h-2T and Its Own Policies
        TM does not have a mechanism in place to ensure that
        broker-dealers retain certain information and file 17(h)
        documents with the Commission, as required by Rules 17h-
        1T and 17h-2T, nor does TM enforce compliance with its
        own policies and procedures.

Temporary Rule 17h-1T. This rule requires broker-dealers subject to the
Broker-Dealer Risk Assessment program to retain information about their risk
management policy, financial data, securities and commodities position data,
trading records and information concerning certain associated entities. However,
TM does not monitor whether broker-dealers maintain this information and TM
has not reminded the broker-dealers of this requirement. It is important for firms
to retain this information because it is required by the rule and TM may need to
rely upon this information if a firm experiences financial difficulties or undergoes
a major change, or if the information is requested from sources internal or
external to the Commission.

Recommendation 3
At least annually, the Division of Trading and Markets should remind the broker-
dealers subject to the Broker-Dealer Risk Assessment program of their obligation
to retain the information specified in Rule 17h-1T. In addition, the Division of
Trading and Markets should take appropriate steps to determine if the firms
retain this information in accordance with Rule 17h-1T.

Temporary Rule 17h-2T. This rule requires certain broker-dealers to file 17(h)
documents with the Commission. However, nearly one-third of the firms that are
required to file Form 17-H failed to do so. In fact, according to TM’s records, 47
of 146 firms and 44 of 146 firms failed to file Form 17-H for the fourth quarter of
2007 and third quarter of 2007, respectively.

Of the six firms that TM actively monitors, one firm failed to file its fourth quarter
2007 submission as of July 23, 2008. The submission was due March 31, 2008.
Additionally, TM failed to process and review the fourth quarter filings for two
firms as of June 24, 2008. These two submissions were due on March 31, 2008.
This illustrates that TM is not effectively monitoring or timely reviewing
information from the six firms that it claims it focuses its review upon.

TM acknowledged that it generally does not follow-up with firms that do not file
Form 17-H because TM’s staff would not likely review these filings even if the

Broker-Dealer Risk Assessment Program                                 September 25, 2008
Report No. 446-B
                                        Page 12
firms submitted the documents. TM staff also admitted that there may be other
firms that are subject to filing Form 17-H, but TM made an informal and
undocumented policy decision to only contact non-filers when a firm’s size is
substantial and it holds customer assets. Finally, TM stated that some firms that
consistently fail to file Form 17-H with the Commission may be exempt from
filing, due to a merger with another firm. However, TM did not have supporting
documentation to verify this assertion.

While TM made a policy decision to focus its review on only six out of 146 firms,
temporary rule 17h-2T still requires filings from many firms that TM does not
review. Until the temporary rules are revised, TM is responsible for ensuring that
all of the firms required to file, are in fact filing. TM is also responsible for staying
abreast of the information in the filings. This is important because if a firm
collapses or experiences other problems, TM should readily have access to the
firm’s most recent information in order to respond timely to an incident or provide
Commission staff with further information. The 17(h) filing information also
assists the Commission to monitor the firms that file 17(h) documents.

Recommendation 4
The Division of Trading and Markets should establish a procedure to ensure that
the required broker-dealers file Form 17-H in a timely manner and conduct
reviews of the 17(h) filings in a timely manner.

TM’s Policies and Procedures. TM’s policies and procedures state that TM’s
quarterly review of the filings from the six firms it monitors should be documented
with a one to two page memorandum describing TM’s review, any findings or
business developments, and note any discussions held with firm personnel.
However, TM verbally told us that its policy only entails writing memoranda
describing its review one time a year, after receiving the broker-dealers’ annual
filings, rather than quarterly as its polices and procedures require.

TM’s most recent memoranda describing its review of the six firms it focuses its
review upon were dated as early as November 1, 2006 and as late as August 30,
2007. This illustrates that TM is neither complying with its written policies and
procedures to write quarterly memoranda, nor its verbal assertion to write annual
memoranda.

We believe that TM should comply with its documentation requirement because
this helps TM’s staff to stay abreast of the broker-dealers’ operations and new
developments.

Recommendation 5
The Division of Trading and Markets should either comply with its written policy
to document its review of quarterly 17(h) filings with a written memorandum

Broker-Dealer Risk Assessment Program                                   September 25, 2008
Report No. 446-B
                                        Page 13
describing its review or update its written policy to reflect an appropriate way to
ensure that its review of 17(h) filings is properly and adequately documented.


Finding 4: TM Does Not Process 17(h) Filings in a
Timely Manner.
        We observed a large backlog of 17(h) filings that were
        waiting to be processed and filed by TM. This hampers TM’s
        program staff from efficiently and effectively locating and
        reviewing pertinent information in the 17(h) filings.

We selected the ten firms that TM plans to review in 2008. From the date the
filings were received by the Commission, it took TM from two to 112 days, with
an average of 48 days, to process the filings.

Although we understand that TM has chosen not to review the majority of the
17(h) filings and believes that the rules should be updated to reflect this decision,
the fact remains that temporary rule 17h-2T is still in place and requires all
reporting broker-dealers to file Form 17-H with the Commission. As such, the
Commission is responsible for, and therefore, should process these filings in a
timely manner. Timely processing of these filings would provide the Commission
with the information needed in order to respond in a timely manner to a major
problem or change that a firm may experience.

Recommendation 6
The Division of Trading and Markets should establish a procedure to ensure that
its staff process and disseminate the 17(h) filings in a defined period of time,
which ensures that the information in the filings is current and relevant when the
filings are processed.


Finding 5: TM’s List of Exempt Firms is
Incomplete and Erroneous
        TM does not maintain adequate documentation in support of
        the firms that it listed as being exempt from filing Form 17-H.

TM staff provided OIG with a list of 112 firms they identified as being exempt
from filing Form 17-H. TM said some firms were exempt because they had
merged with another firm, or they otherwise no longer met the requirements for


Broker-Dealer Risk Assessment Program                                September 25, 2008
Report No. 446-B
                                        Page 14
filing Form 17-H. TM maintains information in its file room on firms that are
exempt from filing Form 17-H.

Of the list of 112 firms that TM identified as being exempt from filing Form 17-H,
we judgmentally selected 20 firms from this list to determine if there was
documentation to support the exemption.16 Of the 20 firms we reviewed, the OIG
found that:

      •   In 14 cases, TM could not locate the related file or the proof of exemption.
          One firm that was on the exemption list was one of the six firms that TM
          reviews; and
      •   In six cases, TM located the files. In three of the six cases, we found
          proof of each firm’s exempt status in TM’s files. In the remaining three
          cases, proof of each firm’s exempt status was not in the file, but TM staff
          provided OIG with information from a non-Commission system, which
          substantiated these firms’ exempt status.

We also randomly selected TM’s files of six firms, that TM indicated were exempt
from filing Form 17-H.17 Our purpose was to determine if these firms were
included in TM’s list of 112 exempt firms. From the six firms we selected, only
three were on TM’s list of exempt firms.

These reviews illustrated that TM does not maintain adequate documentation to
support its assertion that certain broker-dealers are exempt from filing Form 17-
H. Accordingly, TM’s list of exempt firms is erroneous and incomplete. It is
important for TM to maintain this documentation and to have an accurate and
complete list of exempt firms to better ensure that TM does not mistakenly
exempt any firms from the review process.

Recommendation 7
Within three months after the issuance of this report, the Division of Trading and
Markets (TM) should develop and maintain a current list, with supporting
documentation, which identifies all of the broker-dealers that are exempt from
filing Form 17-H. TM should continuously update this list as new firms are
exempted from filing Form 17-H.




16
     See Appendix III for the sampling methodology that was used.
17
     See Appendix III for the sampling methodology that was used.

Broker-Dealer Risk Assessment Program                                  September 25, 2008
Report No. 446-B
                                             Page 15
Finding 6: TM Has Not Effectively Encouraged
Firms to Electronically File 17(h) Documents
           Only 20 of the 146 firms that TM collects Form 17-H from file
           electronically using the BDRA system.

The OIG report, issued in August 2002, recommended that TM explore the
feasibility of having firms electronically file 17(h) documents. In 2005, TM in
consultation with OIT launched the BDRA system, which enables firms to file
electronically. TM’s policies and procedures state that TM will place additional
emphasis on encouraging firms to file Form 17-H electronically. TM has also
acknowledged that electronic filing is preferable to receiving paper filings.

Currently, however, three years later, only 20 of the 146 firms from which TM
collects Form 17-H from file electronically using the BDRA system. Of the six
firms that TM reviews, only two firms file electronically. In contrast, all seven
firms that TM monitors through the CSE and SIBHC programs file electronically
using the BDRA system. While TM has made some efforts to encourage
additional firms to file electronically, TM has not aggressively encouraged firms to
use the BDRA system.

The Government Paperwork Elimination Act18 and the E-Government Act of
200219 were enacted to promote the use and availability of electronic methods to
interact with Federal government agencies. These Acts encourage Federal
Agencies to allow individuals or entities that deal with the Federal Government
the option to submit information or transact electronically. In accordance with
these Acts, TM should more aggressively encourage firms to file 17(h)
documents using the BDRA system.

Additionally, electronic filing is more secure, it would improve the timeliness of
the filings and all Commission staff with access to BDRA could simultaneously
view the filings. Electronic filing would also eliminate TM’s processing backlog of
paper filings.

Recommendation 8
The Division of Trading and Markets should aggressively encourage firms to file
electronically using the BDRA system. The Division of Trading and Markets
should especially encourage the firms that it reviews to file electronically. This
could be accomplished by calling the firms and periodically sending the firms
information on how to file electronically.

18
     Public Law 105-277 (October 21, 1998).
19
     Public Law. 107-347 (December 17, 2002).

Broker-Dealer Risk Assessment Program                                 September 25, 2008
Report No. 446-B
                                                Page 16
Finding 7: TM Should More Effectively Utilize the
BDRA System
        TM is not using the BDRA system to store information about
        the firms it reviews or to produce management reports.

Currently, TM only uses the BDRA system as a portal to store filings. TM staff
could better utilize the system by storing in BDRA financial information about the
firms it reviews, staff notes and written documents. It could also use the system
to generate management reports. Currently, TM’s staff maintain documentation
on the firms they review in their own files or on TM’s shared drive. Storing this
information in the BDRA system would be beneficial because the data would be
more centrally organized and would enable TM staff to generate management
reports.

TM has already discussed these capabilities with OIT. The BDRA system
currently allows TM to store staff notes in BDRA. OIT would need to be further
configure BDRA to enable it to create financial information and to generate
management reports.

Recommendation 9
In coordination with the Office of Information Technology, the Division of Trading
and Markets (TM) should ensure that the BDRA system includes financial
information, staff notes and other written documentation about the firms TM
reviews and that BDRA is used to generate management reports.


Finding 8: Several Technical Problems Exist with
the BDRA System That Need to be Addressed.
        Technical problems exist with the BDRA system, thus
        hampering the system’s effectiveness and firms’ willingness
        to file electronically with the Commission.

The BDRA System. Although the BDRA system has several features that could
assist TM with its review of 17(h) filings as described above, the BDRA system
has several problems as follows, which can be resolved:

    •   Only parts of a filing appear in the BDRA system if TM staff access the
        information in a particular manner. OIT stated that it is reviewing the
        BDRA system to identify and fix this problem.

Broker-Dealer Risk Assessment Program                              September 25, 2008
Report No. 446-B
                                        Page 17
    •   A digital signature does not consistently accompany filings that firms
        upload into BDRA. A digital signature is an electronic signature that can
        be used to authenticate the identity of the sender of a message or the
        signer of a document. The digital signature is important because it helps
        ensure that information the broker-dealers send to the Commission has
        not been altered. OIT stated that the BDRA system needs to be
        reprogrammed to ensure the firms include this signature.

    •   If a filing is larger than 16 megabytes, the entire filing will not upload into
        BDRA. TM has told firms to check the size of their filings prior to
        uploading them and to divide filings over 16 megabytes into more than
        one submission. TM stated that it plans to work with OIT to see if the
        system can be configured to allow users to upload filings greater than 16
        megabytes in one submission.

        In addition to filings greater than 16 megabytes, TM also told us that filings
        less than 16 megabytes do not consistently upload into BDRA. For
        example, in August 2008, a filing that was only eight megabytes failed to
        upload into BDRA.

    •   Users were unable to access the BDRA system for at least two days in
        June 2008. OIT stated that the system was inoperable because it was
        making changes to the system.

Recommendation 10
The Office of Information Technology, in coordination with the Division of Trading
and Markets, should ensure that technical problems with the BDRA system are
resolved so that:
   • All filings in the BDRA system can be properly and fully accessed;
   • A digital signature accompanies all required filings;
   • All filings, including those that are greater than and less than 16
       megabytes, can be completely and accurately uploaded into BDRA in one
       submission; and
   • Access to the BDRA system is consistently available to users and TM
       should promptly notify all users when it is unavailable.




Broker-Dealer Risk Assessment Program                                   September 25, 2008
Report No. 446-B
                                        Page 18
                                                                 Appendix I


                                        Acronyms

BDRA            Broker Dealer Risk Assessment
CSE             Consolidated Supervised Entity
FINRA           Financial Industry Regulatory Authority
GAAP            Government Accepted Accounting Principles
GLBA            Gramm-Leach-Bliley Act
MAP             Material Associated Person
OIG             Office of Inspector General
OIT             Office of Information Technology
SIBHC           Supervised Investment Bank Holding Company
TM              Division of Trading and Markets




Broker-Dealer Risk Assessment Program                        September 25, 2008
Report No. 446-B
                                          Page 19
                                                                            Appendix II


                Congressional Request for Audit




                                        April 2, 2008

Via Electronic Transmission

The Honorable David Kotz
Inspector General
US Securities and Exchange Commission
100 F Street, NE
Washington, DC 20549-2736

Dear Inspector General Kotz:

       According to regulatory filings and a December 2007 Wall Street Journal article,
the SEC Enforcement Division declined to bring a case against Bear Stearns for
improperly valuing mortgage-related investments. Given the later collapse and federally
backed bail-out of Bear Stearns, Congress needs to understand more about this case and
why the SEC ultimately sought no enforcement action.

        Moreover, I am particularly interested in this case in light of the SEC’s failed
investigation of Pequot Capital Management. As you know, in the final report of the
Senate’s inquiry into that matter, we found that senior SEC officials showed
extraordinary deference to a particular witness because of his “prominence” as the head
of Morgan Stanley.

Request for Investigation

        In light of my earlier investigation I need to know whether the same problems
identified in the Pequot investigation were repeated in the Bear Stearns case.
Accordingly, I request that you conduct a thorough investigation into the facts and
circumstances surrounding the decision to not pursue an enforcement action against Bear
Stearns. Please provide a final report on whether there was any improper action or
misconduct relating to SEC investigation of Bear Stearns and its decision to close the
investigation. The report should also describe and assess:

            1. the nature, extent, and propriety of communications between Bear Stearns
               executives or their representatives and senior SEC officials;


Broker-Dealer Risk Assessment Program                                    September 25, 2008
Report No. 446-B
                                          Page 20
                                                                               Appendix II

            2. the decision-making process which led to the SEC’s failure to bring an
               enforcement action following the drafting of a Wells notice;

            3. the reasons for declining to proceed with an enforcement action; and

            4. the degree to which more aggressive action by the Enforcement Division
               may have led to an earlier and more complete understanding of the issues
               that contributed to the collapse of Bear Stearns.

Request for Audit

        In addition to this investigative request, I would also like your office to follow-up
on previous audit work relevant to issues surrounding Bear Stearns. The Division of
Trading and Markets (Division) is responsible for regulating the largest broker-dealers
and the associated holding companies. Offices within the Division are staffed with
accountants and economists who are responsible for reviewing the market and credit-risk
exposures of the broker dealers. Their review includes assessing broker-dealers’
quarterly financial filings, ensuring broker-dealers are meeting net-capital requirements
and that other financial ratios, such as liquidity ratios, are adequate. There is a special
emphasis in reviewing the five very large broker-dealers, including Bear Stearns, known
as the Consolidated Supervised Entity (CSE) Program. The Division staff exercises
additional oversight of these firms and examines their risk models.

       I understand that the OIG conducted a prior audit of these responsibilities in
2002. Please provide an update of the previous findings, determine whether earlier
recommendations were implemented, and analyze the current function of these offices.
The review should include a description and assessment of their missions, how the
programs are run, their policies and procedures, the adequacy of any reviews conducted
regarding Bear Stearns, and recommendations for improvements in the process.

       If you have any questions about these requests, please contact Jason Foster or
Emilia DiSanto at (202) 225-4515.


                                        Sincerely,




                                        Charles E. Grassley
                                        Ranking Member




Broker-Dealer Risk Assessment Program                                       September 25, 2008
Report No. 446-B
                                           Page 21
                                                                       Appendix III


                         Scope and Methodology

We conducted this performance audit in accordance with generally accepted
government auditing standards. These standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

Scope. We obtained from TM, information showing all the firms currently filing
Form 17-H, delinquent filers, exempt firms and sample 17(h) filings. We obtained
information illustrating TM’s review of six firms and related financial information
from 2006 to 2008. We obtained information allowing us to test TM’s timeliness
in processing filings. We obtained information showing the status of TM’s
implementation of prior OIG audit recommendations on this program (Broker-
Dealer Risk-Assessment Program, Audit No. 354, August 13, 2002). We also
obtained information from FINRA showing the amount of customer accounts and
free credit balances held by reporting broker-dealers as of March 31, 2008.

We conducted our fieldwork from April 2008 to August 2008. We reviewed
documentation on the Broker-Dealer Risk Assessment program covering the
years 2006 to 2008.

Methodology. We reviewed TM’s policies and procedures governing the
Broker-Dealer Risk Assessment program, documentation showing all firms that
file Form 17-H and documents showing delinquent filers and exempt firms. We
also reviewed documentation of TM’s review of 17(h) filers. We reviewed and
relied upon workpapers from our prior audit report on this program (Broker-
Dealer Risk-Assessment Program, Audit No. 354, issued August 13, 2002). In
addition, we held discussions with representatives from TM and OIT to learn
about the program and to discuss and confirm our findings.

We conducted detailed testing to determine whether TM enforced compliance
with temporary rules 17h-1T and 17h-2T and whether TM complied with its
policies and procedures. We also performed testing to measure TM’s timeliness
in processing filings, and to determine the accuracy of TM’s list of exempt firms.
We analyzed data from FINRA to determine the amount of customer assets and
free credit balances that were attributable to filing and non-filing broker-dealers.

Internal/Management Controls. We reviewed internal/management controls as
they pertained to the objectives of our audit.



Broker-Dealer Risk Assessment Program                                September 25, 2008
Report No. 446-B
                                        Page 22
                                                                       Appendix III

Use of Computer-Processed Data. We determined the umber of firms that file
electronically by relying on data from the Commission’s BDRA system. Firms
use the BDRA system to transmit filings electronically to TM. The BDRA system
does not process any of the data contained in the filings but rather only stores
the filings in electronic format. As a result, we considered the relevant risks to
be:
    •   TM’s failure to receive a filing sent by a firm; and
    •   Whether information in the BDRA system could be compromised
        (information security risks).

We identified an instance where TM failed to receive a filing that a firm
transmitted through BDRA and where only parts of filings could only be viewed if
TM staff accessed the BDRA system in a particular way. During the audit TM
was working with OIT to address these issues.

We considered the risk surrounding information security. In July 2008, OIT
certified and accredited the BDRA system, as required by the Federal
Information Security Management Act of 2002. Therefore, we believe that we
can rely upon the information in the BDRA system as it pertains to information
security.

Judgmental Sampling. TM provided us with a list of 112 firms considered
exempt from the 17(h) filing process. We judgmentally selected every fifth firm
on the list (22 firms) to determine if TM had documentation on file indicating that
the firms were actually exempt from filing Form 17-H. We deleted two firms from
our sample because they were CSE firms, which are no longer part of the
Broker-Dealer Risk Assessment program.

TM stores information on exempt firms in file folders in a file room. Each folder
contains information on a particular firm. We randomly selected six folders to
determine if the firms were included in TM’s list of exempt firms.

In another analysis we selected the ten firms that TM plans to review in the near
future and measured how long it took TM to process these filings, from the date
the Commission received the filings. We originally tried to review processing
times for the six firms that TM is currently reviewing, but this information was not
available.

Prior Audit Coverage. From March to May 2002, the OIG audited and
assessed the Commission’s Risk Assessment program and issued a related
report Broker-Dealer Risk-Assessment Program, Report No. 354, August 13,
2002. The report contained 14 recommendations aimed to improve the program.



Broker-Dealer Risk Assessment Program                                September 25, 2008
Report No. 446-B
                                        Page 23
                                                                    Appendix IV


                                        Criteria
Final Temporary Risk Assessment Rules. Governs the Broker-Dealer Risk
Assessment program. Adopted July 16, 1992 in Commission Release no. 34-
30929.

A Study and Evaluation of the Effectiveness of the Final Temporary Risk
Assessment Rules. Issued December 1996. Discusses the effectiveness of
the Risk Assessment Rules.

TM’s Policies and Procedures Governing the Broker-Dealer Risk
Assessment program. Issued September 2007. Discusses TM’s review of
17(h) filings and the purpose of the program.

Report to the Congress on Financial Holding Companies under the Gramm-
Leach-Bliley Act. Issued November 2003. Discusses how the implementation
of the Gramm-Leach-Bliley Act, enacted on November 12, 1999, permitting
banks, securities firms and holding companies to affiliate with one another and
the effects of the Act on regulated entities.

The Government Paperwork Elimination Act. Enacted on October 21, 1998.
The Act is designed to improve customer service and governmental efficiency
through the use of information technology.

The E-Government Act of 2002. Enacted on December 17, 2002. This Act was
designed to promote the use of the Internet and other information technologies to
improve government services for citizens, internal government operations, and
opportunities for citizen participation in government.




Broker-Dealer Risk Assessment Program                             September 25, 2008
Formal Draft Report No. 446-B
                                         Page 24
                                                                        Appendix V


                       List of Recommendations

Recommendation 1
Within 6 months from the issuance of this report, the Division of Trading and
Markets (TM) should establish a timeframe to update and finalize temporary rules
17h-1T and 17h-2T. The new rules should reflect the TM’s Broker-Dealer Risk
Assessment program’s review process and program priorities. The rules should
be revised to:

    •   Raise the capital threshold that triggers the 17(h) filing requirement (if TM
        believes the threshold is too high);
    •   Shorten the time allotted firms to send quarterly and annual 17(h) filings to
        the Commission;
    •   Require broker-dealers to file audited year-end financial statements;
    •   Allow for the collection of relevant information about risks posed by
        derivative products and transactions;
    •   Require all broker-dealers subject to filing Form 17-H to file consolidating
        financial statements with the Commission;
    •   Require broker-dealers to file the footnote disclosures that accompany the
        financial statements and the statement of cash flows;
    •   Require broker-dealers to supplement the organizational charts they file
        with a narrative description of each entity associated with the broker-
        dealer and its ultimate holding company;
    •   Require broker-dealers to preserve all pertinent documents; and
    •   Incorporate any additional changes that reflect TM’s policy decisions on
        how to administer the Broker-Dealer Risk Assessment program.

Recommendation 2
The Division of Trading and Markets (TM) should determine whether Bear
Stearns and the broker-dealers of the other CSE firms are required to file Form
17-H. If TM determines that these broker-dealers are required to file Form 17-H,
the Division of Trading and Markets should enforce their compliance with this
filing requirement and timely process and review these filings.

Recommendation 3
At least annually, the Division of Trading and Markets should remind the broker-
dealers subject to the Broker-Dealer Risk Assessment program of their obligation
to retain the information specified in Rule 17h-1T. In addition, the Division of
Trading and Markets should take appropriate steps to determine if the firms
retain this information in accordance with Rule 17h-1T.



Broker-Dealer Risk Assessment Program                                September 25, 2008
Report No. 446-B
                                        Page 25
                                                                        Appendix V


Recommendation 4
The Division of Trading and Markets should establish a procedure to ensure that
the required broker-dealers file Form 17-H in a timely manner and conduct
reviews of the 17(h) filings in a timely manner.

Recommendation 5
The Division of Trading and Markets should either comply with its written policy
to document its review of quarterly 17(h) filings with a written memorandum
describing its review or update its written policy to reflect an appropriate way to
ensure that its review of 17(h) filings is properly and adequately documented.

Recommendation 6
The Division of Trading and Markets should establish a procedure to ensure that
its staff process and disseminate the 17(h) filings in a defined period of time,
which ensures that the information in the filings is current and relevant when the
filings are processed.

Recommendation 7
Within three months after the issuance of this report, the Division of Trading and
Markets (TM) should develop and maintain a current list, with supporting
documentation, which identifies all of the broker-dealers that are exempt from
filing Form 17-H. TM should continuously update this list as new firms are
exempted from filing Form 17-H.

Recommendation 8
The Division of Trading and Markets should aggressively encourage firms to file
electronically using the BDRA system. The Division of Trading and Markets
should especially encourage the firms that it reviews to file electronically. This
could be accomplished by calling the firms and periodically sending the firms
information on how to file electronically.

Recommendation 9
In coordination with the Office of Information Technology, the Division of Trading
and Markets (TM) should ensure that the BDRA system includes financial
information, staff notes and other written documentation about the firms TM
reviews and that BDRA is used to generate management reports.

Recommendation 10
The Office of Information Technology, in coordination with the Division of Trading
and Markets (TM), should ensure that technical problems with the BDRA system
are resolved so that:
   • All filings in the BDRA system can be properly and fully accessed;
   • A digital signature accompanies all required filings;



Broker-Dealer Risk Assessment Program                                September 25, 2008
Report No. 446-B
                                        Page 26
                                                                  Appendix V


    •   All filings, including those that are greater than and less than 16
        megabytes, can be completely and accurately uploaded into BDRA in one
        submission; and
    •   Access to the BDRA system is consistently available to users and TM
        should promptly notify all users when it is unavailable.




Broker-Dealer Risk Assessment Program                          September 25, 2008
Report No. 446-B
                                        Page 27
                                                                              Appendix VI


                    Management Comments (TM)
 DIVISION OF TRADING AND MARKETS MANAGEMENT COMMENTARY

The Division of Trading and Markets (“Division”) appreciates the opportunity to
comment on the Office of Inspector General (“OIG”) Report “SEC Risk Assessment
Program.”


1. The Division acknowledges that the risk assessment rules promulgated under Section
   17(h) of the Exchange Act (“the 17(h) rules”) need to be reviewed and modified to
   assure that relevant information is collected from an appropriate set of firms to meet
   the objective of the program, namely to assess the risks to registered broker-dealers
   that may stem from activities conducted in affiliates. Review of the rule set has
   already begun. The effort will accelerate with the arrival of a new attorney who is
   scheduled to begin work on September 29. The Division believes that essentially all
   of the issues raised in the OIG report will be addressed through an appropriate
   revision of the rules. For example, such an effort can assure that an appropriate
   population of broker-dealers is filing risk assessment information, and mandate that
   this information be filed electronically.

2. As noted in the Division’s informal comments to OIG, the staff is concerned that the
   report repeatedly describes the program as reviewing “only” six firms in detail. The
   report does not recognize the compelling reason for focusing limited resources on six
   firms: these six firms, together with the firms supervised by the Commission or the
   Federal Reserve at the consolidated level, hold substantially all customer free credit
   balances.

    More specifically, as of the first quarter 2008, some $605 billion in total free credit
    balances are held by firms filing Form 17-H (or former filers now exempted because
    of CSE or SIBHC status). Broker-dealers affiliated with the CSE firms supervised by
    the Commission on a consolidated basis account for $356 billion of this $605 billion.
    Broker-dealers affiliated with holding companies supervised by the Federal Reserve,
    as either a US Bank Holding Company or a Foreign Banking Organization, account
    for another $175 billion of the total. Thus only $74 billion in free credit balances are
    held at broker-dealers affiliated with holding companies not subject to Commission or
    Federal Reserve supervision.

    The risk assessment program focused on six of these firms, which account for $60
    billion of that $74 billion in free credit balances. This focus accords with the aims of
    the 17(h) rules to assess risks that affiliates might pose to the broker-dealer. The
    remaining 140 firms that file Form 17-H but are not reviewed in depth account for
    only $14 billion of free credit balances, or 2.3 percent. While the staff believes that

Broker-Dealer Risk Assessment Program                                      September 25, 2008
Report No. 446-B
                                          Page 28
                                                                              Appendix VI

    the current allocation of resources is compelling, the staff also recognizes that
    additional efficiencies can be gained by revising the 17(h) rules.

3. As noted in the Division’s informal comments to OIG, the report suggests that the
   Division’s responsibilities with regard to the 17(h) rules are unusually broad. Finding
   3 suggests that the Division should “enforce” compliance with Rules 17h-1T and 17h-
   2T. The report also recommends that the Division at least annually “should remind
   broker-dealers subject to the 17(h) Risk Assessment Program of their obligation to
   retain the information specified.” Given that these requirements are mandated by
   rules, the staff believes that registrants must fulfill obligations even without
   prompting from the SEC, and instituting a systematic process of providing
   “reminders” could inadvertently weaken the Commission’s position when taking
   action against registrants in cases of non-compliance with other rules and
   requirements.

4. As noted in the Division’s informal comments to OIG, the staff does not believe that
   the issue involving the Bear Stearns merger is sufficiently material to be one of the
   eight primary findings in the report. The matter is one of minimal substance that will
   be resolved in due course along with numerous other open issues associated with the
   Bear Stearns – JP Morgan merger (“Merger”). The Merger resulted in two broker-
   dealers, Bear Stearns & Co. and Bear Stearns Securities Corporation, becoming
   affiliates of JP Morgan, a bank holding company overseen by the Federal Reserve on
   a consolidated basis. Therefore, prior to the Merger, comprehensive holding
   company information was provided by The Bear Stearns Companies Inc. pursuant to
   the CSE rules. Subsequent to the Merger, comprehensive holding company
   information (although in reduced quantity due to the Federal Reserve’s role as
   holding company supervisor) is filed by JP Morgan pursuant to the CSE rules. In
   both cases, the information serves the purposes of the 17(h) rules, namely to allow for
   assessing the potential risks to the registered broker-dealers. In addition, the
   information provided pursuant to the CSE rules both before and after the merger
   constitutes a superset of the information required under the 17(h) rules. Discussions
   are still ongoing among the Commission, JP Morgan, and FINRA regarding which of
   the broker-dealers of the merged entity will be reorganized and how this will occur.
   When this is resolved, one of the surviving entities will request to be designated as
   the reporting broker-dealer for purposes of the 17(h) rules. Obviously, similar
   determinations may be necessary to the extent that other broker-dealers have been
   involved in corporate reorganizations or otherwise subject to changes in regulatory
   status.

5. As noted in its informal comments to OIG, the Division believes that there is
   unnecessary, negative language throughout the report, especially in the Executive
   Summary. We believe that this language is unfair and does not accurately describe
   the issues presented,. Just to highlight several instances: The report finds that “TM is
   not fulfilling its obligations.” The report also opines that “[a] dditionally, given the
   catastrophic collapse of Bear Stearns and serious questions that have been raised

Broker-Dealer Risk Assessment Program                                       September 25, 2008
Report No. 446-B
                                          Page 29
                                                                             Appendix VI

    regarding the Commission’s and CSE program’s monitoring of Bear Stearns, we
    believe that TM should have immediately contacted Bear Stearns to discuss its
    potential 17(h) filing requirements.” After noting that “TM reviews information from
    the remaining 140 firms only if a pertinent issue arises,” this approach is described as
    “sporadic and random.” The report notes that rules have not been updated due to a
    “lack of prioritization,” rather than reflecting the fact that other projects were
    accorded a higher priority.



Please indicate your concurrence or non-concurrence with each recommendation
that applies to your Division or Office.


Recommendation 1: Within 6 months from the issuance of this report, the Division
of Trading and Markets should establish a timeframe to update and finalize
temporary rules 17h-1T and 17h-2T. The new rules should reflect the Division of
Trading and Market’s 17(h) program review process and program priorities.

The Division concurs with this recommendation, and has already begun the process of
addressing the need to revise the cited rules.

Recommendation 2: The Division of Trading and Markets should determine
whether Bear Stearns and the broker-dealers of the other CSE firms are required to
file Form 17-H. If TM determines that these broker-dealers are required to file
Form 17-H, the Division of Trading and Markets should enforce their compliance
with this filing requirement and timely process and review these filings.

The Division concurs, and will make these determinations per usual course. However, as
described in more detail in the management response, the staff is confident in the case of
Bear Stearns that all relevant information to permit assessment of risks to the broker-
dealers affiliated with JP Morgan is currently being provided.

Recommendation 3: At least annually, the Division of Trading and Markets should
remind the broker-dealers subject to the 17(h) Risk Assessment Program of their
obligation to retain the information specified in Rule 17h-1T. In addition, the
Division of Trading and Markets should take appropriate steps to determine if the
firms retain this information in accordance with Rule 17h-1T.

The Divsion does not concur that broker-dealers should be notified to comply with
Commission rules, for the reasons noted in the management response.




Broker-Dealer Risk Assessment Program                                     September 25, 2008
Report No. 446-B
                                         Page 30
                                                                              Appendix VI


Recommendation 4: In accordance with Rule 17h-2T, the Division of Trading and
Markets should establish a procedure to ensure that the required broker-dealers file
Form 17-H in a timely manner and conduct reviews of the 17(h) filings in a timely
manner.

The Division concurs.

Recommendation 5: The Division of Trading and Markets should either comply
with its written policy to document its review of quarterly 17(h) filings with a
written memorandum describing its review or update its written policy to reflect an
appropriate way to ensure that its review of 17(h) filings is properly and adequately
documented.

The Division concurs, but notes that the FY2008 Planning Document, provided during
the course of OIG’s review, does document this particular change in procedure.

Recommendation 6: The Division of Trading and Markets should establish a
procedure to ensure that its staff process and disseminate the 17(h) filings in a
defined period of time, which ensures that the information in the filings is current
and relevant when the filings are processed.

The Division concurs.

Recommendation 7: Within three months after the issuance of this report, the
Division of Trading and Markets should develop and maintain a current list, with
supporting documentation, which identified all of the broker-dealers that are
exempt from filing Form 17-H. The Division of Trading and Markets should
continuously update this list as new firms are exempted from filing Form 17-H.

The Division concurs.

Recommendation 8: The Division of Trading and Markets should aggressively
encourage firms to file electronically using the BDRA system. The Division of
Trading and Markets should especially encourage the firms that it reviews to file
electronically. This could be accomplished by calling the firms and periodically
sending the firms information on how to file electronically.

The Division concurs that electronic filing should be encouraged. However, the staff
notes that it has called firms, sent e-mail to firms, and otherwise encouraged what would
be a voluntary migration to electronic filing. Such outreach was undertaken with more
than 60 firms filing Form 17-H. Despite concerted efforts by the Office of Information
Technology (“OIT”), technical issues involving the BDRA system have remained a
significant obstacle to the success of these initiatives in migrating substantial numbers of
Broker-Dealer Risk Assessment Program                                      September 25, 2008
Report No. 446-B
                                          Page 31
                                                                              Appendix VI

firms to the BDRA system. The staff is hopeful that the continued cooperation with OIT
on the technical issues, combined with a mandatory electronic filing requirement in a
revised rule, will succeed in eliminating non-electronic filing of Form 17-H.

Recommendation 9: In coordination with the Office of Information Technology, the
Division of Trading and Markets should ensure that the BDRA system includes
financial information, staff notes and other written documentation about the firms
TM reviews and that BDRA is used to generate management reports.

The Division concurs, recognizing however that rule revisions could substantially alter
the population of filers as well as the information filed. Thus it is important to design and
implement any enhancement to the BDRA system in conjunction with rule revisions.




Broker-Dealer Risk Assessment Program                                      September 25, 2008
Report No. 446-B
                                         Page 32
                                                                            Appendix VI


                    Management Comments (OIT)

                                        Memorandum
To:       Jacqueline M. Wilson
          Assistant Inspector General for Audits

From: Lewis W. Walker
      Chief Information Officer (Acting)

Subject: Responses to Formal Draft Report, SEC Risk Assessment Program,
         Report No. 446-B

Date: September 11, 2008

Thank you for the opportunity to respond to the above captioned report. OIT is
responding only to those two recommendations for which it is assigned some
responsibility for action.

Recommendation 9: In coordination with the Office of Information Technology,
the Division of Trading and Markets should ensure that the BDRA system
includes financial information, staff notes and other written documentation about
the firms TM reviews and that BDRA is used to generate management reports.

Management Response and comments:

Although OIT does not object to this recommendation, it notes that decisions
about the functionality of the BDRA system, what data it contains, and how the
system is used reside solely with TM. To the extent that TM determines to
implement any portions of this recommendation, OIT will provide support to the
extent it is consistent with the agency’s enterprise architecture and other agency
priorities for IT resources and funding.

With respect to current efforts to assist TM with respect to the suggested
enhancements to the BDRA application:

      •   OIT staff has discussed with the users adding financial information to the
          report generation function. After the next release of Business Objects XI
          is implemented (currently estimated as December 2008), OIT’s Walk-in
          Development Center can help the user create financial reports.

      •   Within the current release, there is a “Staff Notes” tab for each filing that is
          meant to be used for the user’s notes. Storing TM’s staff documentation

Broker-Dealer Risk Assessment Program                                    September 25, 2008
Report No. 446-B
                                          Page 33
                                                                      Appendix VI

        using the BDRA application is a requirement that possibly could be fulfilled
        in a future release (there is already a tab labeled “Attachments” that could
        provide the ability to store these documents). However, OIT will consider
        all options for best satisfying TM’s document management requirements
        when it is approached to architect the solution.


Recommendation 10: The Office of Information Technology, in coordination
with the Division of Trading and Markets should ensure that technical problems
with the BDRA system are resolved so that:
    • All filings in the BDRA system can be properly and fully accessed;
    • A digital signature accompanies all required filings;
    • All filings, including those that are greater than and less than 16
       megabytes, can be completely and accurately uploaded into BDRA in one
       submission; and
    • Access to the BDRA system is consistently available to users and TM
       should promptly notify all users when it is unavailable.

Management Response and comments:

Release 1.7 to the BDRA application was successfully deployed on September 5,
2008 and addressed almost all of recommendation 10 as noted in the following
list of system changes:

1) Access to All Filing Information - The BDRA Form Parser was modified so
that the submission will include all attachments. This change resolves the
problem of having only parts of a filing appear in the BDRA system.

2) Digital Signatures – The capability for digital signatures existed in BDRA. In
the new version, a digital signature will be required when the radio button for
Digital Signature is selected on the Form 17H. However, the decision to require
that a digital signature accompany all filings is a business decision that must be
made by TM.

3) Size Limit Notification - The system no longer accepts filings that are greater
than 16MB. It will stop large submissions from being accepted and tell the user
why the submission is not being accepted. This size limitation is necessary at
this time due to the configuration of the underlying database. OIT plans is to
upgrade the database to the latest version of the MYSQL database by no later
than March 31, 2009 which will eliminate the need to impose size limits for filings.

4) Notification for All System Downtime - In the future, the OIT Project team
will ensure that all users are notified prior to any system downtime or future
maintenance releases.


Broker-Dealer Risk Assessment Program                               September 25, 2008
Report No. 446-B
                                        Page 34
                                                                     Appendix VI

In view of the above, OIT requests that recommendation 10 be revised to remove
all recommendations except that BDRA be able to accept filings greater than 16
megabytes. If the recommendation for digital signatures is retained, responsibility
for its implementation should be assigned to TM.

Cc:     Srini Bangarbale
        George Eckard
        Remi Pavlik-Simon
        Jeff Thomas




Broker-Dealer Risk Assessment Program                              September 25, 2008
Report No. 446-B
                                        Page 35
                                                                    Appendix VII


      OIG Response to Management’s Comments

The Division of Trading and Markets (TM) and the Office of Information
Technology (OIT) responded to this report. TM concurred with 9 out of 10 of the
report’s recommendations and OIT concurred with the two recommendations that
were addressed to their office.

We are pleased with the willingness on the part of the Commission to implement
the report’s recommendations. However, we are disappointed that TM disagrees
with recommendation no. 3, which states that TM should remind broker-dealers
subject to the 17(h) Risk Assessment Program of their obligation to retain the
information specified in Rule 17h-1T and take appropriate steps to determine if
the firms retain this information in accordance with Rule 17h-1T. We believe that
enforcing the rule’s requirements is prudent and we request that TM reconsider
its position and remind broker-dealers of the requirement to preserve information,
as stated in recommendation 3. In addition, although not specifically mentioned
in the report, we also believe that TM should remind the broker-dealers of their
requirement to file Form 17-H. The OIG found that approximately one-third of the
firms required to file this form, failed to do so.




Broker-Dealer Risk Assessment Program                             September 25, 2008
Report No. 446-B
                                        Page 36
                       Audit Request and Ideas

The Office of Inspector General welcomes your input. If you would like to request an
audit in the future or have an audit idea, please contact us at:

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Request/Idea)
100 F Street, N.E.
Washington D.C. 20549-2736


Tel. #: 202-551-6061
Fax #: 202-772-9265

Email: oig@sec.gov




       Hotline
       To report fraud, waste, abuse, and mismanagement at SEC,
       contact the Office of Inspector General at:

       Phone: 877.442.0854

       Web-Based Hotline Complaint Form:
       www.reportlineweb.com/sec_oig
